Report No. D-2008-052        February 19, 2008




       Disbursing Operations Directorate
   at Defense Finance and Accounting Service
            Indianapolis Operations
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
DFAS                  Defense Finance and Accounting Service
DoD FMR               DoD Financial Management Regulation
GSA                   General Services Administration
IPAC                  Intra-Governmental Payment and Collection System
SOD-Deposits          Statement of Differences-Deposits
SRD1                  Standard Finance System Redesign 1
                             1i\IC:pl='(,Tn!=l   GENERAL
                           DEPARTMENT OF DEFENSE
                            400 ARMY NAVY DRIVE
                       ARLINGTON, VIRGINIA 22202-4704



                                                                       February 19,2008

MEMORANDUM FOR DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
                 SERVICE

SUBJECT: Disbursing Operations Directorate at Defense Finance and Accounting
         Service Indianapolis Operations (Report No. D-2008-052)


        We are providing this report for information and use. We considered
management comments on a draft of this report in preparing the final report. Comments
on the draft ofthis report conformed to the requirements of DoD Directive 7650.3 and
left no umesolved issues. Therefore, no additional comments are required.

        We appreciate the courtesies extended to the staff. Questions should be directed
to Mr. Jack Armstrong at (317) 510-4801, ext. 274 (DSN 699-4801). See Appendix B for
the report distribution. The team members are listed inside the back cover.

                               By direction of the Deputy Inspector General for Auditing:



                                         Pr;t;;~~          tI, /fl~
                                        Patricia A. Marsh, CPA
                                       Assistant Inspector General
                                    Defense Finance Auditing Service
                Department of Defense Office of Inspector General
Report No. D-2008-052                                                   February 19, 2008
   (Project No. D2007-D000FL-0119.000)

 Disbursing Operations Directorate at Defense Finance and Accounting
                   Service Indianapolis Operations

                                 Executive Summary

Who Should Read This Report and Why? DoD personnel responsible for processing
Intra-Governmental Payment and Collection System (IPAC) transactions, reporting IPAC
suspense account balances, and reconciling statements-of-deposit differences should read
this report. It is the first in a series of reports related to Defense Finance and Accounting
Service Indianapolis Operations (referred to as “DFAS Indianapolis”) disbursing
operations. This report discusses internal control weaknesses regarding the processing of
IPAC transactions, adjustments to IPAC suspense accounts, and the reconciliation of the
“Statement of Differences-Deposits” report.

Background. DFAS Indianapolis provides finance and accounting support to the Army
and other Defense agencies. DFAS Indianapolis Disbursing Operations Directorate
performs a full range of disbursing operations for all organizations receiving
departmental accounting support from DFAS Indianapolis. Significant Disbursing
Operations Directorate accounting activities include processing transactions through
IPAC and expenditure reporting, including reconciliation of the “Statement of
Differences-Deposits.” From November 2006 through March 2007, the Disbursing
Operations Directorate processed 13.6 million disbursements totaling $44.1 billion.

Results. The Disbursing Operations Directorate did not process IPAC transactions in a
timely manner. As a result, Federal agencies that provide goods and services to DoD
were denied use of funds until payment was received (Finding A).

The Disbursing Operations Directorate reported incorrect suspense account balances and
used journal vouchers to improperly reduce suspense account balances for unprocessed
IPAC transactions. As a result, inaccurate amounts were reported to the U.S. Treasury;
on the Army and other Defense agencies’ financial statements; and on monthly suspense
account reports (Finding B).

The Disbursing Operations Directorate did not reconcile the “Statement of Differences-
Deposits” within 2 months and did not report unreconciled differences older than
2 months as a loss or overage of funds. As a result, there was a risk that actual losses of
funds would not be identified in a timely manner and agency managers could overspend
or overobligate because they did not have current and accurate information on amounts in
their Fund Balance with Treasury accounts. Also, unreconciled differences could impact
Fund Balance with Treasury amounts reported in the financial statements (Finding C).

The Director of DFAS Indianapolis should develop model standard operating procedures
that include time frames for processing transactions and that require documentation of
when invoices are received. These procedures should be coordinated with the Assistant
Secretary of the Army (Financial Management and Comptroller) and Director of
Accounting Operations. The Director of DFAS Indianapolis should implement
procedures to monitor IPAC bills-entered transactions for timeliness (including
mandatory population of the invoice date field) and determine why DFAS field
accounting sites did not use accurate invoice dates when inputting transactions into
IPAC. The Director of DFAS Indianapolis should enforce current regulations, which
require posting unprocessed IPAC transactions to suspense accounts, and stop using
journal vouchers to improperly reduce IPAC suspense account balances. In addition, the
Director of DFAS Indianapolis should revise standard operating procedures to require
reconciliation of differences on the “Statement of Differences-Deposits” within 2 months.
See the Findings section of the report for detailed recommendations.

Management Comments and Audit Response. The Director of DFAS Indianapolis
Operations concurred with five recommendations and nonconcurred with the
recommendation to enforce DFAS 7230.1-I, “Intra-Governmental Payment and
Collection System,” March 2002, which requires posting unprocessed Intra-
Governmental Payment and Collection System transactions into suspense accounts. The
Director of DFAS Indianapolis stated that because limited time exists between IPAC cut-
off and when official reports must be closed for the month, a $50 million threshold was
established as a means to not only reduce suspense accounts, but also to align the source
charge to the correct appropriation in the current accounting period. As an alternative
solution, the Director of DFAS Indianapolis Operations proposed that a lower threshold
be incrementally phased in, with a goal of completely eliminating the flow of IPAC
transactions into suspense accounts by March 1, 2009. We consider the Director’s
comments and alternative solution to be responsive; therefore, no further comments are
required. DFAS Rome provided unsolicited comments to the draft report and agreed
with the recommendations in Finding A to DFAS Indianapolis. See the Findings section
of the report for a discussion of management comments and the Management Comments
section of the report for the complete text of the comments.




                                            ii
Table of Contents

Executive Summary                                                        i

Background                                                               1

Objectives                                                               2

Review of Internal Controls                                              2

Findings
     A. Intra-Governmental Payment and Collection System Transactions    3
     B. IPAC Suspense Accounts                                          11
     C. Statement of Differences-Deposits                               14

Appendixes
     A. Scope and Methodology                                           17
     B. Report Distribution                                             19


Management Comments
     Defense Finance and Accounting Service Indianapolis Operations     21
     Defense Finance and Accounting Service Rome                        24
Background
    This is the first in a series of reports related to Defense Finance and Accounting
    Service Indianapolis Operations (referred to as “DFAS Indianapolis”) disbursing
    operations. It discusses timeliness of Intra-Governmental Payment and Collection
    System (IPAC) transactions, adjustments to IPAC suspense accounts, and
    reconciliation of the “Statement of Differences-Deposits” (SOD-Deposits).

    Defense Finance and Accounting Service Indianapolis Operations. DFAS
    Indianapolis provides finance and accounting support to the Army and other
    Defense agencies. The DFAS Indianapolis Disbursing Operations Directorate
    performs a full range of disbursing operations for all organizations receiving
    departmental accounting support from DFAS Indianapolis. Significant
    Disbursing Operations Directorate accounting activities include processing
    transactions through IPAC and expenditure reporting, including reconciliation of
    the SOD-Deposits. During November 2006 through March 2007, the Disbursing
    Operations Directorate processed 13.6 million disbursements totaling
    $44.1 billion.

    Intra-Governmental Payment and Collection System. IPAC is an automated
    U.S. Treasury system used for the intragovernmental transfer of funds and is the
    primary system to process intragovernmental exchange transactions.

    IPAC Transactions. IPAC transactions can be either “bills-charged” or “bills-
    entered.” Bills-charged transactions are initiated in IPAC by another Federal
    agency. Bills-entered transactions originate in IPAC at DFAS field accounting
    sites or at the Disbursing Operations Directorate. Both bills-charged transactions
    and bills-entered transactions may be either a disbursement or a collection to the
    transaction originator.

    Intra-Governmental Payment and Collection System Wizard. The “IPAC
    Wizard” is a Microsoft Access-based system developed by the Disbursing
    Operations Directorate to process and reconcile IPAC and Standard Finance
    System Redesign 1 (SRD1) transactions. Versions of the Wizard are used by the
    Disbursing Operations Directorate (“Central Site Wizard”) and DFAS field
    accounting sites (“Field Site Wizard”).

    Disbursing Operations Directorate IPAC Responsibilities. The Disbursing
    Operations Directorate downloads daily bills-charged transactions from IPAC and
    loads them into the “IPAC Wizard,” a Microsoft Access program that sorts
    transactions according to the field accounting site responsible for processing
    them. The Disbursing Operations Directorate returns transactions to the
    submitting Federal agency if they do not contain sufficient data to identify the
    field accounting site. The Disbursing Operations Directorate also uploads
    transactions into IPAC and SRD1 that are received from field accounting sites.
    These transactions consist of bills-charged transactions that have been accepted
    by the field accounting site and bills-entered transactions.

    Standard Finance System Redesign 1. SRD1 is an online, interactive
    entitlements and disbursing database system used by the Disbursing Operations
    Directorate. SRD1 incorporates military pay, travel, accounts payable,
    accounting, civilian pay and disbursing functions.


                                         1
     Field Accounting Site IPAC Responsibilities. Field accounting sites are
     responsible for preparing and certifying data for bills-entered transactions, which
     are processed into the IPAC Wizard Access database and SRD1. The field
     accounting site ensures that all pertinent information is in the appropriate fields,
     to include the accounting classification. The field site also verifies obligations
     and enters appropriate SRD1 data for bills-charged transactions. Field accounting
     sites receive invoices for bills-entered transactions directly from the billing
     agency and from Army and other Defense agencies.


Objectives
     The audit objective was to determine whether the Disbursing Operations
     Directorate at DFAS Indianapolis was efficient, effective, and subject to adequate
     internal controls. We were also to determine whether non-centralized DFAS
     disbursing operations should be consolidated into the DFAS Indianapolis
     Disbursing Operations Directorate. We did not perform sufficient work to
     determine whether non-centralized DFAS disbursing operations should be
     consolidated into the DFAS Indianapolis Disbursing Operations Directorate, but
     we intend to review DFAS plans to consolidate disbursing operations in a future
     audit. The objective of this report is to discuss the processing of IPAC
     transactions, the use of IPAC suspense accounts, and the reconciliation of SOD-
     Deposits. See Appendix A for a discussion of the scope and methodology related
     to the objectives.


Review of Internal Controls
     We identified internal control weaknesses for DFAS Indianapolis as defined by
     DoD Instruction 5010.40, “Managers’ Internal Control (MIC) Program
     Procedures,” January 4, 2006. DFAS Indianapolis did not have effective internal
     controls for monitoring bills-entered IPAC transactions to ensure that transactions
     were processed in a timely manner. DFAS Indianapolis did not have effective
     internal controls to ensure that suspense account balances used for unprocessed
     IPAC transactions were properly reported at the end of the month. In addition,
     DFAS Indianapolis did not have effective internal controls to ensure that the
     SOD-Deposits report was reconciled in a timely manner. Implementing
     Recommendations A.1, A.2, A.3, A.4, B, and C will improve the timeliness of
     IPAC transaction processing, the accuracy of month-end reporting, and the
     timeliness of reconciliation of the SOD-Deposits. We will provide a copy of the
     report to the DFAS official responsible for management controls.




                                          2
                     A. Intra-Governmental Payment and
                        Collection System Transactions
                    The Disbursing Operations Directorate did not process IPAC transactions
                    in a timely manner. There were no procedures that required accounting
                    sites to document when invoices were received or specified time frames to
                    process IPAC transactions. In addition, the Disbursing Operations
                    Directorate did not monitor bills-entered transactions submitted by DFAS
                    field accounting sites to identify the transactions that were not processed
                    in a timely manner. As a result, Federal agencies that provided goods and
                    services to DoD were denied use of funds until payment was received.


Processing IPAC Transactions
           Timely Processing of IPAC Transactions. The Disbursing Operations
           Directorate did not promptly process IPAC transactions. DoD Regulation
           7000.14-R, “DoD Financial Management Regulation,” (DoD FMR), volume 10,
           chapter 10, June 1997; and DFAS Indianapolis Regulation 37-1, “Finance and
           Accounting Policy Implementation,” Chapter 9 and Appendix E, January 2000,
           require that interagency bills be paid within 15 days of receipt of the bill. The
           DoD FMR volume 10, chapter 10, June 1997, requires payment within 30 days of
           the billing date for General Services Administration (GSA) Motor Pool
           transactions. Because IPAC transactions include both disbursements and
           collections, the dollar value of the transactions is presented in absolute value
           terms. 1 Table 1 shows the number of days between the invoice date and
           disbursing date in IPAC for the November 2006 through March 2007
           transactions. Of the 68,628 IPAC transactions processed:

                    •   10,345 transactions for $88.5 million (absolute value) were more than
                        30 days old,

                    •   7,904 transactions for $661 million (absolute value) were 15 days old
                        or less, and

                    •   33,798 transactions for $1.5 billion (absolute value) had no invoice
                        date.




1
    When computing absolute value, collections which appear in IPAC as negative numbers are converted to
    positive before being added to disbursement amounts, which appear in IPAC as positive numbers. An
    absolute value total provides an aggregate total that may more accurately reflect the amount of dollars
    involved than a “net” total, where negative and positive numbers cancel each other out and potentially
    understate the dollar value of transactions processed.



                                                      3
               Table 1. Difference Between Invoice Date and Date Disbursed
                   For Bills-Entered Transactions* (Dollars in Millions)

              Number of          Bills-  Bills-               Difference Between Invoice Date
             Transactions       Entered Entered                and Disbursement Date (days)
 Month                            w/o     w/
                  Absolute                                 0–         16 –        31 –    61 –
                                Invoice Invoice                                                   > 90
                    Value                                  15          30          60      90
                                 Date    Date
             Transactions         6,165   4,073            1,351      1,640        848      60     174
     Nov
     2006       Absolute
                                  $278.4         $73.6     $56.3           $9.4    $3.1    $1.8    $3.0
                   Value
             Transactions          6,699         7,644     1,611      3,487       1,888    425     233
     Dec
     2006       Absolute
                                  $265.8        $176.6   $155.2            $9.3    $4.0    $4.9    $3.3
                   Value
             Transactions          6,337         7,771     1,230      3,025       2,858    407     251
      Jan
     2007       Absolute
                                  $390.0        $130.8     $87.0           $9.2    $8.3    $2.8   $23.7
                   Value
             Transactions          7,390         7,866     2,011      3,848        906     268     833
      Feb
     2007       Absolute
                                  $338.1        $184.9   $150.7       $15.7        $6.4    $3.9    $8.2
                   Value
             Transactions    7,207               7,476     1,701      4,581        444     178     572
     Mar
     2007       Absolute
                            $276.8              $246.5   $211.8       $19.5        $5.7    $2.2    $7.2
                   Value
             Transactions  33,798               34,830     7,904    16,581        6,944   1,338   2,063
 Totals         Absolute
                          $1,549.1              $812.4   $661.0       $63.1       $27.5   $15.6   $45.4
                   Value
 *
  Bills-entered transactions include both disbursements and collections.

Transactions Aged More Than 30 Days. We selected 178 transactions totaling
$43.3 million (absolute value) from the IPAC transactions where the difference
between the invoice date and disbursement date in IPAC was more than 30 days.
For these 178 transactions, we obtained the invoice and other supporting
documentation used by the DFAS field accounting site to enter the transaction
into IPAC. The invoice and other supporting documentation for the 178 IPAC
transactions showed that they were not processed in a timely manner. The
invoice dates in IPAC were generally consistent with the actual invoice dates on
the invoice and other supporting documentation. In addition, the supporting
documentation we obtained for the transactions included third-demand letters,
notices that services were being suspended until payment was made, and e-mails
stating that payments were delinquent. When a transaction is entered into IPAC,




                                            4
supporting documentation is maintained by the DFAS field accounting site and is
not forwarded to the Disbursing Operations Directorate. Invoice and transaction
support included the following examples.

       •   Support for Treasury Document Number 773B0445 included a GSA
           third-delinquency notice dated January 28, 2007, that requested
           payment in the amount of $662,161 for an invoice dated September
           28, 2006. A GSA log indicated that the first-delinquency notice was
           sent on November 24, 2006, and the second-delinquency notice was
           sent on January 3, 2007. The DFAS field accounting site entered the
           transaction into IPAC on March 7, 2007. There were 161 days
           between the invoice date and the March 8, 2007 disbursement date.

       •   Support for Treasury Document Number 77396863 included a
           Standard Form 1080, “Voucher for Transfers Between Appropriations
           and/or Funds” from the Department of Justice, Federal Bureau of
           Investigation, dated May 23, 2005, that requested payment in the
           amount of $178.80. On October 16, 2006, the Federal Bureau of
           Investigation sent a final-delinquency notice stating that the bill was
           more than 180 days overdue. The DFAS field accounting site entered
           the transaction into IPAC on January 10, 2007. There were 599 days
           between the invoice date and the January 12, 2007 disbursement date.

       •   Support for Treasury Document Number 77389814 included a
           November 14, 2006 “Notice of Dunning” from the Library of
           Congress that identified a $243,087.03 overdue bill that was originally
           dated August 8, 2006. The DFAS field accounting site entered the
           transaction into IPAC on December 7, 2006. There were 122 days
           between the invoice date and the December 8, 2006 disbursement date.

Transactions Aged 0 to 15 Days. We selected a sample of 72 transactions
totaling $29.1 million (absolute value) where there were up to 15 days between
the invoice date and disbursement date in IPAC. Of the 72 transactions,
64 transactions with an absolute value of $27.2 million (absolute value) had more
than 15 days between the invoice date and disbursing date. For these
64 transactions, the DFAS field accounting site had entered a date into IPAC
other than the actual invoice date on the invoice. In most cases, the date the
transaction was entered into IPAC was used as the invoice date. Invoice and
transaction support included the following examples.

       •   Support for Treasury Document Number 77396814 included a GSA
           invoice dated September 21, 2006, for $371.22. GSA sent a
           delinquency notice dated November 17, 2006, requesting payment of
           the invoice. The DFAS field accounting site entered the $371.22
           disbursement into IPAC on January 9, 2007, and used January 9, 2007,
           as the invoice date. Although IPAC showed 2 days between the
           invoice date and disbursement date, there were actually 112 days
           between the invoice date and the disbursement date.

       •   Support for Treasury Document Number 773A2347 included a GSA
           invoice dated October 25, 2006, for $4,255.28. An e-mail from GSA
           dated February 6, 2007, stated that delinquency notices were sent on
           January 3, 2007, and January 29, 2007. The DFAS field accounting
           site entered the $4,255.28 disbursement into IPAC on February 7,

                                    5
               2007 with an invoice date of February 7, 2007. Although IPAC
               showed 2 days between the invoice date and disbursement date, there
               were 107 days between the actual October 25, 2006 invoice date and
               the disbursing date.

    No Invoice Date in IPAC. We selected a third sample of 96 transactions totaling
    $2.2 million (absolute value), where no invoice date appeared in IPAC. The
    invoice date field is not a U.S. Treasury-mandated field for processing an IPAC
    transaction, and the Disbursing Operations Directorate did not require that it be
    populated. We obtained the invoice and other supporting documentation used by
    the DFAS field accounting site to input the transaction into IPAC. Of the
    96 transactions, 84 with a total of $2.1 million (absolute value) had greater than
    15 days between the invoice date and the disbursing date. Invoice and transaction
    support included the following examples.

           •   Support for Treasury Document Number 773A4390 included an
               invoice from GSA dated October 21, 2006, for $6,564.25. An e-mail
               dated February 13, 2007, stated that GSA identified the bill as
               delinquent. The DFAS field accounting site entered the $6,564.25
               disbursement into IPAC on February 14, 2007 and did not include an
               invoice date. There were 118 days between the October 21, 2006,
               invoice date and the disbursing date.

           •   Support for Treasury Document Number 77399485 included a
               “Dunning Notice to Debtor” from the U.S. Department of Agriculture,
               Forest Service, dated July 3, 2006, requesting payment of $2,327.02
               and identifying the due date of the original invoice as May 3, 2006.
               The DFAS field accounting site entered the $2,327.02 disbursement
               into IPAC on January 22, 2007, and did not populate the invoice date
               field. There were 266 days between the original due date identified on
               the dunning notice and the disbursing date.

    Of the 346 invoice packages totaling $74.6 million (absolute value), 70 totaling
    $1.4 million (absolute value) were for GSA motor vehicle leases. The DoD FMR
    volume 10, chapter 10, June 1997, requires payment within 30 days of the billing
    date for GSA Motor Pool transactions. Of the 70 invoices, 59 totaling
    $1.3 million (absolute value) had more than 30 days between the invoice date and
    the disbursing date.


Processing IPAC Transactions
    DFAS Rome, Army, and other Defense agencies did not have effective controls
    over IPAC transactions to ensure that they were promptly processed. Invoices
    were not date-stamped when received, and these organizations did not address
    timely processing procedures in their standard operating procedures.

    DFAS Rome Processing of IPAC Transactions. DFAS Rome was the DFAS
    field accounting site that input 90.8 percent of the IPAC transactions where the
    difference between the invoice date and disbursement date exceeded 15 days. We
    visited DFAS Rome and reviewed their procedures for receiving, processing,


                                        6
inputting, and monitoring IPAC transactions. We obtained 142 invoices totaling
$40.3 million (absolute value) that were processed into IPAC by DFAS Rome.
Of the 142 invoices, 124 totaling $38.6 million (absolute value) had more than
30 days in IPAC between the invoice date and the disbursing date; 14 totaling
$1.6 million (absolute value) did not have an invoice date in IPAC, but the
invoice date on the invoice identified that the transaction was not processed in a
timely manner; and 4 invoices totaling $10,015 (absolute value) did not have an
invoice date in IPAC, but the invoice supported that the transaction was processed
in a timely manner.

The DFAS Rome IPAC process involved receiving intragovernmental invoices,
identifying a line of accounting for the transaction, and inputting the invoices into
IPAC. DFAS Rome had different offices determining the line of accounting to be
used and inputting the transaction into IPAC. DFAS Rome personnel estimated
that they received 75 percent of the IPAC invoices by mail. Per DFAS
Indianapolis Regulation 37-1, the IPAC payment is due 15 days after a bill is
received. However, DFAS Rome did not date-stamp invoices or use any other
method to log in invoices when they received them. Without date-stamping
invoices or logging them in, it is difficult to track how long it takes to process
invoices and monitor whether they are being processed in a timely manner.

DFAS Rome did not have standard operating procedures or other local written
procedures that specified the number of days allowed, once an invoice is received,
to process it and enter the transaction into IPAC. In addition, the Disbursing
Operations Directorate IPAC processing procedures, which addressed DFAS field
accounting site IPAC responsibilities, did not include processing time frames for
bills-entered transactions. Although intragovernmental payment standards are
identified in the DoD FMR and DFAS Indianapolis Regulation 37-1, standard
operating procedures for specific job positions help ensure that personnel
performing those specific functions are aware of the performance expectations
associated with their jobs and that those performance expectations are relayed to
new personnel. The Disbursing Operations Directorate should develop model
standard operating procedures for DFAS field accounting sites that include time
frames for processing transactions and that require documenting when invoices
are received.

Army and Other Defense Agency Processing of IPAC Transactions. Billing
agencies send invoices either directly to DFAS field accounting sites or to Army
and other Defense agencies, who certify the invoices and then submit them to
DFAS field accounting sites. Army and other Defense agencies who received
invoices from a billing agency included Washington Headquarters Services,
Military Entrance Processing Command, and Installation Management Command.
We visited these three organizations and reviewed their procedures for receiving,
certifying, and submitting invoices to the appropriate DFAS site for IPAC input.
None of the three activities used date-stamping or logged in invoices to document
when they were received. Also, they did not have standard operating procedures
or other written documents that specified how long they had to certify an invoice
and submit it to a DFAS IPAC input area. The Disbursing Operations Directorate
should coordinate model standard operating procedures with the Assistant
Secretary of Army (Financial Management and Comptroller) and Director of
Accounting Operations so that appropriate time frames for certifying invoices and
submitting them to DFAS field accounting sites may be established.



                                      7
Monitoring IPAC Transactions
    Disbursing Operations Directorate Monitoring of IPAC Transactions. Bills-
    entered transactions entered at DFAS field accounting sites into the Field Site
    IPAC Wizard are transferred to the Disbursing Operations Directorate for upload
    into the U.S. Treasury IPAC. Therefore, the Disbursing Operations Directorate
    has access to detailed transaction data for all of the bills-entered transactions that
    are entered by the DFAS field accounting sites. When DFAS field accounting
    sites correctly populate the invoice date field in IPAC, the Disbursing Operations
    Directorate is able to monitor the timeliness of IPAC transactions. Monitoring
    IPAC transactions can identify the causes of late transactions and enable
    corrective action to be taken. However, the Disbursing Operations Directorate
    did not monitor bills-entered transactions submitted by DFAS field accounting
    sites and did not identify transactions that were not processed in a timely manner.
    Although the Disbursing Operations Directorate had procedures in place to
    monitor bills-charged transactions that had been sent to a field accounting site and
    not processed timely, these procedures did not include tracking bills-entered
    transactions. In addition, procedures issued by the Disbursing Operations
    Directorate that outlined field accounting site responsibilities and instructions for
    processing IPAC transactions did not include timeliness standards for bills-
    entered processing. The Disbursing Operations Directorate should require the
    DFAS field accounting sites to populate the invoice date field in IPAC so that it
    can be used to monitor whether transactions are processed in a timely manner.
    The Disbursing Operations Directorate should also determine why DFAS field
    accounting sites did not use accurate invoice dates when inputting transactions
    into IPAC.

    DFAS Rome Monitoring of IPAC Transactions. DFAS Rome did not have
    controls to monitor how many days it took to process an invoice and enter it into
    IPAC. In order to ensure that IPAC transactions are processed in a timely
    manner, DFAS Rome and other field accounting sites should monitor how long it
    takes to process invoices and enter them into IPAC.

    Army and Other Defense Agency Monitoring of IPAC Transactions. The
    Army and other Defense agencies did not have controls to monitor how long it
    took to certify an invoice and transmit it to a DFAS field accounting site.

    Impact of Incorrect Payments. The Disbursing Operations Directorate was not
    monitoring IPAC bills-entered transactions for timeliness. If Disbursing
    Operations Directorate personnel had been monitoring IPAC bills-entered
    transactions, they would have noticed that transactions were not being processed
    in a timely manner. Intragovernmental transactions that are not processed in a
    timely manner deprive agencies of the use of funds. Many of the IPAC
    transactions that were not processed timely were payments to the GSA, which
    uses revolving funds that depend on timely payments from customers in order to
    continue operations. As stated in a GSA third-delinquency notice:
           GSA revolving funds depend on the prompt payment by other agencies
           to provide cash flow for purchasing additional goods and services.




                                           8
                    Please assist us in obtaining payment of these delinquent invoices so
                    that we may continue to provide services through the Public Buildings
                    Services Rent Program.

           The Disbursing Operations Directorate has access to detailed transaction data for
           IPAC bills-entered transactions and should take the lead in developing an overall
           plan to monitor transactions and ensure that transactions are processed in a timely
           manner.


Recommendations, Management Comments, and Audit
  Response
           A. We recommend that the Director, Defense Finance and Accounting
           Service Indianapolis Operations:

                  1. Develop model standard operating procedures for Defense Finance
           and Accounting Service field accounting sites that include time frames for
           processing transactions and that require documenting when invoices are
           received.

                  2. Coordinate the model standard operating procedures with the
           Assistant Secretary of Army (Financial Management and Comptroller) and
           Director of Accounting Operations.

                  3. Implement procedures to monitor Intra-Governmental Payment
           and Collection System bills-entered transactions for timeliness, to include
           requiring the Defense Finance and Accounting Service field accounting sites
           to correctly populate the invoice date field.

                  4. Determine why Defense Finance and Accounting Service field
           accounting sites did not use accurate invoice dates when inputting
           transactions into the Intra-Governmental Payment and Collection System.

           Management Comments. The Director of DFAS Indianapolis Operations
           concurred and stated that the Standards and Compliance office is leading a Lean6
           project on the standardization of IPAC processing for all DFAS centers. 2 The
           Director of DFAS Indianapolis Operations stated that the Lean6 project team has
           started to draft an IPAC standard operating procedure for all DFAS centers and,
           once the standard operating procedure is complete, it will be coordinated with the
           Assistant Secretary of the Army (Financial Management and Comptroller) and the
           Director of Accounting Operations. The Director of DFAS Indianapolis
           Operations also stated that the requirement to populate the invoice date field and
           the method and responsibility for monitoring IPAC transaction activity will be
           addressed in the standard operating procedure. The estimated completion date is
           October 1, 2008.

           DFAS Rome Comments. DFAS Rome provided unsolicited comments and
           agreed with our recommendations. DFAS Rome stated that its standard operating
2
    Lean6 is a method to reduce process variation, streamline operations, and create more efficient and cost-
    effective capabilities.



                                                       9
procedures were updated to include time frames, that all incoming documentation
into the IPAC Section will be date-stamped, and that an IPAC log was created to
track all IPAC payments.

Audit Response. Management’s comments are responsive to the
recommendations and no further comments are required.




                                   10
           B. IPAC Suspense Accounts
           The Disbursing Operations Directorate reported incorrect suspense
           account balances for unprocessed IPAC transactions. Specifically, the
           Disbursing Operations Directorate used journal vouchers to improperly
           reduce the suspense account balances by $286.1 million. The Disbursing
           Operations Directorate did not follow DFAS instructions for recording
           unprocessed IPAC transactions, and, consequently, the U.S. Treasury and
           users of Army and other Defense agencies’ financial statements and of the
           monthly suspense account report did not have accurate information.


Unprocessed IPAC Transaction Procedures
    The Disbursing Operations Directorate reported incorrect suspense account
    balances for unprocessed IPAC transactions. DFAS 7230.1-I, “Intra-
    Governmental Payment and Collection System,” March 2002, requires that all
    unprocessed IPAC transactions be placed in the appropriate F3885.007 suspense
    account at the end of each month. The transactions that are placed in account
    F3885.007 at the end of each month must be processed against the proper
    appropriation in the subsequent month.

    The Disbursing Operations Directorate uses its report, “Treasury Docs With
    Unclear Amounts,” to monitor unprocessed IPAC transactions at the end of each
    month. This report identifies IPAC transactions that have been received by the
    Disbursing Operations Directorate from the U.S. Treasury but that have not yet
    been recorded in SRD1. Uncleared transactions are bills-charged transactions
    that have not yet been accepted by the fiscal station and transactions that are
    received after the monthly cut-off for IPAC processing. The Disbursing
    Operations Directorate initially recorded the unprocessed transactions at the end
    of the month into the appropriate F3885.007 suspense accounts, as required by the
    DFAS instruction. However, Disbursing Operations Directorate personnel stated
    that in months where the balance of F3885.007 exceeded $50 million, the
    Disbursing Operations Directorate processed a journal voucher to remove
    transactions from the F3885.007 suspense accounts and post them to the
    appropriations that would have been used, had the transactions been completely
    processed. The following month, the Disbursing Operations Directorate
    processed the IPAC transactions as normal and prepared a second journal voucher
    to reverse the effects of the original journal voucher. The original journal
    vouchers and the reversal journal vouchers contained signatures of the preparer,
    the reviewer, and of six other financial managers located in the Disbursing
    Operations Directorate and in other areas of DFAS Indianapolis.




                                       11
Journal Voucher Adjustments
    The Disbursing Operations Directorate processed $286.1 million in journal
    adjustments to reduce the November 2006 through March 2007 suspense account
    balances for unprocessed IPAC transactions. See Table 2.

       Table 2. Adjustments to IPAC Suspense Accounts (Dollars in Millions)
      Suspense   November December        January     February      March
      Account       2006         2006      2007         2007         2007
     97 F 3885         $0          $91.2        $96.4         $90.7          $0

     21 F 3885          0            2.3           3.3          2.4           0
       Total           $0          $93.5        $99.7         $93.1          $0

    Disbursing Operations Directorate personnel stated that the journal voucher
    adjustments were done so that the U.S. Treasury would not call them and question
    the size of the balances in the F3885.007 suspense accounts. However,
    unprocessed transactions should be posted to and remain in the F3885.007
    suspense accounts until they are properly cleared, as required by current DFAS
    guidance. Disbursing Operations Directorate personnel should not process
    journal vouchers to improperly reduce IPAC suspense account balances.


Reported Suspense Account Information
    The Disbursing Operations Directorate included the improperly reduced suspense
    accounts balances as part of its monthly reporting process to the U.S. Treasury.
    In addition, the Disbursing Operations Directorate included the reduced suspense
    account balances on the monthly suspense account report, and DFAS also
    reported the reduced suspense account balances in the footnotes of the Army and
    other Defense agencies’ financial statements. Users of these reports did not have
    accurate information on the dollar value of IPAC transactions that were actually
    unprocessed.


Recommendation, Management Comments, and Audit
  Response
    B. We recommend that the Director, Defense Finance and Accounting
    Service Indianapolis Operations enforce DFAS 7230.1-I, “Intra-
    Governmental Payment and Collection System,” March 2002, which requires
    posting unprocessed Intra-Governmental Payment and Collection System




                                       12
transactions into suspense accounts, and stop processing journal vouchers to
improperly reduce Intra-Governmental Payment and Collection System
suspense account balances.

Management Comments. The Director of DFAS Indianapolis Operations
nonconcurred with the recommendation and stated that the March 2002 DFAS
regulation 7230.1-I on IPAC needs to be updated to reflect the new Treasury
Financial Manual guidance to discontinue use of suspense accounts. The Director
of DFAS Indianapolis Operations stated that as a result of the new Treasury
Financial Manual guidance, DFAS is participating with OSD and the Services and
Defense Agencies in an effort to implement a planned strategy to eliminate all
inflow of transactions to suspense accounts. The Director stated that the plan is to
incrementally phase in a lower threshold, with the goal of completely eliminating
the inflow to suspense accounts for this purpose. The estimated completion date
is March 1, 2009.

Audit Response. Although DFAS Indianapolis Operations nonconcurred, we
consider the alternative solution proposed by DFAS Indianapolis Operations to be
responsive to our recommendation. The Disbursing Operations Directorate
practice of using journal vouchers to remove transactions from the suspense
accounts when the suspense account balance exceeded $50 million resulted in
inconsistent treatment for similar IPAC transactions. The Disbursing Operations
Directorate did not remove transactions from the suspense accounts when the
suspense account balances were less than $50 million, and in the months that
journal voucher adjustments were done, not all of the transactions in the suspense
accounts were removed and matched to the correct appropriations. The
alternative action proposed by DFAS Indianapolis Operations to incrementally
lower the adjustment threshold from $50 million, with the goal of completely
eliminating the inflow of IPAC transactions to suspense accounts by posting the
transactions to the correct known appropriations, will result in more consistent
reporting of unprocessed IPAC transactions. No further comments are required.




                                    13
            C. Statement of Differences-Deposits
            The Disbursing Operations Directorate did not reconcile the “Statement of
            Differences-Deposits” (SOD-Deposits) within 2 months and did not report
            unreconciled differences older than 2 months as a loss or overage of funds.
            The Disbursing Operations Directorate procedures did not require
            reconciling differences within 2 months, as required by the DoD
            Regulation 7000.14-R, “DoD Financial Management Regulation.” As a
            result, there was a risk that:

                    •   actual losses of funds would not be identified in a timely
                        manner,

                    •   agency managers could overspend or overobligate because they
                        did not have current and accurate information on amounts in
                        their Fund Balance with Treasury accounts, and

                    •   unreconciled differences could impact the Fund Balance with
                        Treasury amounts reported in the financial statements.


Reconciling the Statement of Differences-Deposits
     Disbursing Operations Directorate expenditure reporting responsibilities include
     the reconciliation of the SOD-Deposits. The SOD-Deposits is a monthly report
     provided by the U.S. Treasury that identifies differences between disbursing
     organizations’ FMS 1219 “Statement of Accountability” and the information
     submitted by commercial banks or the Federal Reserve Bank through the
     CA$HLINK II system. The FMS 1219 “Statement of Accountability” is a
     monthly report submitted to the U.S. Treasury by Federal agencies that have their
     own disbursing operations. It establishes disbursing officer accountability for
     funds by reporting deposits, checks issued, and disbursements. CA$HLINK II is
     a financial information system used to manage the collection of U.S. government
     funds and to provide deposit information to Federal agencies. DoD Regulation
     7000.14-R, “DoD Financial Management Regulation,” (FMR), volume 5,
     chapter 5 requires that all deposit differences be reconciled within 2 months or be
     considered a loss or overage of funds. Table 3 shows $458,839,014 in
     unreconciled differences that were more than 2 months old on the October 2006
     through May 2007 SOD-Deposits.




                                         14
         Table 3. Unreconciled Differences on the Statement of Differences-
                       Deposits Greater Than 2 Months Old
        Month/Year      Agency Reports      Treasury Reports     Net Amount
      October 2006       $10,683,067,397      $10,682,978,475          $88,922
      November 2006      $18,070,008,523      $18,069,013,176         $995,347
      December 2006      $22,971,648,453      $22,971,366,215         $282,238
      January 2007       $11,296,755,506      $11,296,178,456         $577,050
      February 2007      $18,664,062,649      $18,683,459,782 $(19,397,133)
      March 2007         $23,634,595,854      $23,634,570,589          $25,265
      April 2007         $24,282,932,447      $23,806,610,478     $476,321,969
      May 2007           $26,261,228,795      $26,261,283,440        $(54,645)
      Total             $155,864,299,624     $155,405,460,611     $458,839,013

Disbursing Operations Directorate Procedures.
     The Disbursing Operations Directorate had procedures in place for correcting
     differences on the SOD-Deposits. These procedures were documented in its
     standard operating procedure, “Reconciling the Analysis of Unmatched
     Transactions (AUTs),” March 2003. However, Disbursing Operations
     Directorate procedures required reconciliation of the SOD-Deposits within
     6 months. The Disbursing Operations Directorate should revise and implement
     the standard operating procedure, “Reconciling the Analysis of Unmatched
     Transactions (AUTs),” to require reconciliation of differences within 2 months, as
     required by the DoD FMR.


Reasons for Reconciliation of Statement of Differences.
     Reconciling the SOD-Deposits in a timely manner will allow the Disbursing
     Operations Directorate to be alert to indicators of fraud and will facilitate prompt
     identification of actual losses. Agency managers run the risk of overspending or
     overobligating if they do not have current and accurate information on amounts in
     their Fund Balance with Treasury accounts. Timely reconciliation of differences
     by the Disbursing Operations Directorate will reduce the risk of differences not
     being corrected before the end of the fiscal year, when financial statement
     reporting of Fund Balances with Treasury is done.


Recommendation, Management Comments, and Audit
  Response
     C. We recommend that the Director, Defense Finance and Accounting
        Service Indianapolis Operations revise and implement the standard
        operating procedure titled “Reconciling the Analysis of Unmatched
        Transactions (AUTs)” to require reconciliation of differences on the
        Statement of Differences-Deposits within 2 months.


                                          15
Management Comments. The Director of DFAS Indianapolis Operations
concurred and stated that the standard operating procedure titled “Reconciling the
Analysis of Unmatched Transactions (AUTs)” was updated to require
reconciliation of differences on the Statement of Differences-Deposits within
2 months. The completion date was November 30, 2007.

Audit Response. Management’s comments are responsive to the
recommendation and no further comments are required.




                                    16
Appendix A. Scope and Methodology
   We conducted this performance audit from January 2007 through October 2007 in
   accordance with generally accepted government auditing standards. Those
   standards require that we plan and perform the audit to obtain sufficient,
   appropriate evidence to provide a reasonable basis for our findings and
   conclusions based on our audit objectives. We believe that the evidence obtained
   provides a reasonable basis for our findings and conclusions, based on our audit
   objectives.

   We reviewed the DFAS Indianapolis Disbursing Operations Directorate process
   for processing Intra-Governmental Payment and Collection System
   (IPAC) transactions. We obtained and reviewed the IPAC payments and
   collections processed by the Disbursing Operations Directorate from November
   2006 through March 2007. We identified the bills-entered transactions with an
   invoice date in IPAC and isolated the transactions that were not related to
   duplicate reversals, military pay accruals, or transactions related to certain
   suspense accounts. We then compared the invoice date in IPAC to the date when
   the transaction was identified as processed in IPAC. We selected and reviewed
   346 invoices packages totaling $20.7 million (net) and $74.6 million (absolute
   value). We obtained and reviewed journal vouchers used by the Disbursing
   Operations Directorate to reduce balances in IPAC suspense accounts.

   We visited DFAS Rome and reviewed its process of receiving and inputting
   transactions into IPAC. We also visited Washington Headquarters Services,
   Military Entrance Processing Command, and Installation Management Command
   and reviewed their processes for receiving, processing, and transmitting invoices
   to DFAS field accounting sites for payment. We conducted interviews with
   DFAS, Army, and other Defense agency personnel responsible for processing
   IPAC payments.

   We reviewed the October 2006 through May 2007 “Statement of Differences-
   Deposits” for the Disbursing Operations Directorate. We conducted interviews
   with DFAS personnel responsible for reconciling the “Statement of Differences-
   Deposits.”

   Use of Computer-Processed Data. We used computer-processed data obtained
   from the U.S. Treasury IPAC to perform this audit. We did not perform a formal
   reliability assessment of the computer-processed data. However, we examined
   additional supporting documentation available from DFAS field accounting sites
   to verify the existence of intragovernmental invoices and to verify the accuracy of
   the data in IPAC. As discussed in Finding A, we found some discrepancies in the
   IPAC data. We addressed the discrepancies in this report. Our results were not
   affected by not performing a complete reliability assessment of IPAC.

   Government Accountability Office High-Risk Area. The Government
   Accountability Office has identified several high-risk areas in DoD. This report
   provides coverage of the Defense Financial Management high-risk area.




                                       17
Prior Coverage
    During the last 5 years, the U.S. Army Audit Agency (USAAA) has issued
    3 reports discussing DFAS Indianapolis Disbursing Operations Directorate.
    USAAA reports are available on a website that is restricted to military domains
    and GAO. They can be accessed at https://www.aaa.army.mil/reports.htm.

USAAA
    USAAA Report No. A-2006-0186-ALR, “Follow-up Audit of Disbursing Station
    Expenditure Operations: DoD Disbursing Station 5570, Accounting Services,
    Army,” August 22, 2006

    USAAA Report No. A-2005-0104-ALW, “Disbursing Station Expenditure
    Operations: DoD Disbursing Station Number 5570,” February 14, 2005

    USAAA Report No. A-2004-0006-FFG, “General Fund Follow-up Issues,”
    October 29, 2003




                                        18
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Finance and Accounting Service

Non-Defense Federal Organization
Office of Management and Budget




                                          19
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement,
  Committee on Oversight and Government Reform
House Subcommittee on National Security and Foreign Affairs,
  Committee on Oversight and Government Reform




                                      20
Defense Finance and Accounting Service
Indianapolis Operations Comments




                      21
22
23
Defense Finance and Accounting Service Rome
Comments




                     24
25
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Paul J. Granetto
Patricia A. Marsh
Jack L. Armstrong
Paul C. Wenzel
Andrew D. Gum
Claudia L. Clouser
Joseph A. Baer
Chad A. Maroska
Shane A. Griffin
Ellen Kleiman-Redden
